REDACTED
APPENDK

TABLE OF APPENDICES
Appendix A
Opinion, United States Court of Appeals
for the District of Columbia, Doe 1 v. FEC,
No. 18-5099 (Apr. 12, 2019)........................ App-1
Appendix B
Order, United States Court of Appeals for
the District of Columbia, Doe 1 u. FEC,
No. 18-5099 (July 11, 2019).... .................. App-24
Appendix C
Amended Memorandum Opinion, United
States District Court for the District of
Columbia, Doe 1 v. FEC, No. 17-2694
(May 29, 2018)............................................... App-26
Appendix D
Relevant
Constitutional
Provisions,
Statutory Provisions, and Regulations.... App-55
U.S. Const, amend. I............................. App-55
52 U.S.C. §30106(b)(l).......................... App-55
52 U.S.C. §30107(a)(8).......................... App-55
52 U.S.C. §30109.................................... App-56
11 C.F.R. §111.20.................................. App-68
Disclosure of Certain Documents in
Enforcement and Other Materials,
81 Fed. Reg. 50,702, 50,702-03
(Aug. 2, 2016)......................................... App-69

App-1
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
No. 18-5099
John Doe, 1 and John Doe, 2,
Appellants,
v.
Federal Election Commission
Appellee.
Appeal from the United States District Court
for the District of Columbia
(No. l:17-cv-02694)
Argued: Oct. 9, 2018
Decided: Apr, 12, 2019
Before: GARLAND, Chief Judge,
HENDERSON, Circuit Judge,
RANDOLPH, Senior Circuit Judge.
OPINION
RANDOLPH, Senior Circuit Judge:1 This is an
appeal from the decision of the district court refusing
1 NOTE: Portions of this opinion contain Sealed Information,
which has been redacted.

App-2
to enjoin the Federal Election Commission from
releasing information identifying a trust and its
trustee in connection with a misreported federal
campaign contribution. Doe v. FEC, 302 F. Siipp. 3d
160 (D.D.C. 2018).
Plaintiffs—the trust and its trustee—appear
incognita as John Doe 2 and John Doe 1. They claim
that the Commission’s release of documents
identifying them would violate the First Amendment
to the Constitution, the Federal Election Campaign
Act (FECA), and the Freedom of Information Act
(FOIA). Plaintiffs and the Commission have filed some
of the documents bearing on this case under seal.
The case began when an organization—Citizens
for Responsibility and Ethics in Washington (CREW),
which appears here as amicus curiae—filed a
complaint with the Commission alleging that a $1.71
million contribution to a political action committee in
October 2012 was made and reported in the name of
someone other than the actual donor.
The Commission’s regulation, implementing 52
U.S.C. § 30122,2 states that no person shall “[m]ake a
contribution in the name of another;” “[kjnowingly
permit his or her name to be used to effect that
contribution;” “[kjnowingly help or assist any person
in making a contribution in the name of another;” or
“[kjnowingly accept a contribution made by one person

2 52 U.S.C. § 30122 provides: “No person shall make a
contribution in the name of another person or knowingly permit
his name to be used to effect such a contribution, and no person
shall knowingly accept a contribution made by one person in the
name of another person.”

App-3
in the name of another.” 11 C.F.R. § 110.4(b)(l)(i)(iv).3

/

In this case the Commission, acting on CREW’s
allegations, voted 6-0 finding reason to believe that
the American Conservative Union violated § 30122
“by knowingly permitting its name to be used to effect
a $1.71 million contribution in the name of another to
Now or Never PAC, an independent expenditure-only
political committee. The Commission also found
reason to believe that [others implicated in CREW’s
complaint] violated 52 U.S.C. § 30122 by making the
contribution in the name of another.” Memorandum
from Lisa Stevenson, Acting Gen. Counsel, to FEC 1
(Aug.
4
2017)
(footnote
omitted),
https://www.fec.gov/files/legal/murs/6920/1704443546
2.pdf. The Commission therefore authorized an
investigation. Id.; see also 52 U.S.C. § 30109(a)(2).
The investigation, conducted by the General
Counsel, traced the $1.71 million contribution and
revealed the following undisputed facts. Government
Integrity, LLC, a Delaware limited liability
corporation, was formed in September 20UMo]Mdie
purpose of making political contributions.
___________________________________ On or about
October 31, 2012, the trust, presumably at the
direction of its trustee, wired $2.5 million to
Government Integrity. Minutes after receipt,
Government Integrity wired $1.8 million to the
American Conservation Union, which then wired the
$1.71 million contribution to the political action
3 See also United States v. Boender, 649 F.3d 650, 660 (7th Cir.
2011); United States v. O’Donnell, 608 F.3d 546, 553-54 (9th Cir.
2010).

App-4
committee, the Now or Never PAC.

While
participating in
these
sequential
transactions on October 31, 2012, James C. Thomas,
III served as the lawyer for Government Integrity and,
at the same time, as the treasurer of the Now or Never
PAC. Thomas filed a report with the Commission, on
behalf of the PAC, listing the American Conservative
Union (ACU) as the source of the $1.71 million even
though ACU considered itself merely a “pass through”
for the contribution.
The General Counsel, in recommending that the
Commission take enforcement action, concluded that
this nearly simultaneous three-step transaction—
from the trust to Government Integrity, from
Government Integrity to ACU, and from ACU to the
PAC—’’suggests that the parties went through
significant lengths to disguise the true source of the
funds.” Third General Counsel’s Report at 11, Am.
Conservative Union, No. MUR 6920 (FEC Sept. 15,
2017),
https://www.fec.gov/files/legal/murs/6920
/17044435484.pdf.
In 2017, the Commission, rather than bringing an
enforcement action, entered into a “conciliation
agreement” with Government Integrity, LLC, the
American Conservative Union, the Now or Never
PAC, and Thomas. Conciliation Agreement, Am.
Conservative Union, No. MUR 6920 (FEC Nov. 3,
2017), https://www.fec.gov/files/legal/murs/6920/170
44434756.pdf; see also 52 U.S.C. § 30109(a)(4)(A)(i).
These respondents to CREW’s complaint agreed not to
contest the Commission’s determination that each of

App-5
them violated § 30122 because the source of the $1.71
million contribution had been disguised. The
conciliation agreement imposed an overall civil
penalty of $350,000. The trust an^th^ruste^w^re
not parties to the agreement and.
^^^Hwere not identified within it.
Because it accepted the conciliation agreement,
the Commission voted to close its file. Pursuant to its
disclosure policy, the Commission announced that it
would release documents from the investigation, some
of which identified the trust and trustee. See generally
Disclosure of Certain Documents in Enforcement and
Other Matters, 81 Fed. Reg. 50,702, 50,702-03 (Aug. 2,
2016) [hereinafter Disclosure Policy]. The Commission
later issued those documents. It removed the disputed
identifying information before publication pending the
outcome of this lawsuit.
Plaintiffs’ complaint sought an injunction barring
the Commission from revealing their identities. They
did not deny the Commission’s assertion that the trust
was the source of the $1.71 million contribution.
Distinguishing AFL-CIO v. FEC, 333 F.3d 168 (D.C.
Cir. 2003), the district court held that the First
Amendment did not prevent the Commission from
disclosing the identity of the trust and trustee; that
the application of the Commission’s disclosure policy
to plaintiffs was reasonable; and that FECA’s
provisions and the regulations thereunder did not bar
the disclosure and authorized the Commission’s
action. Doe, 302 F. Supp. 3d at 165-74.

App-6
I.
The basic claim of the trust and the trustee is that
the Commission had no statutory authority to disclose
any documents identifying them.4 They point out that
FECA “affirmatively and unambiguously provides for
disclosure of two—and only two—items: (1) ‘any
conciliation agreement signed by both the Commission
and the respondent’ and (2) FEC ‘determination [s]
that a person has not violated [FECA or other federal
election laws].’ 52 U.S.C. § 30109(a)(4)(B)(ii).” Does’
Br. 32 (alterations in original). As to (1), the
Commission has made the conciliation agreement
public. As to (2), the Commission did not decide
whether plaintiffs violated FECA.
Plaintiffs’ theory must be that FECA’s
specification of what the Commission is required to
disclose deprives the Commission of authority to
disclose anything else.5 And so they say that if the
Commission publicly releases the additional material
4 The district court rejected plaintiffs’ argument that the
Commission would be violating 52 U.S.C. § 30109(a)(12)(A),
which forbids disclosure of an “investigation” unless the person
being investigated consents. Doe, 302 F. Supp. 3d at 166-68. On
appeal, plaintiffs have abandoned this argument. See Fox v. Gov’t
of D.C., 794 F.3d 25, 29 (D.C. Cir. 2015).
5 Without saying as much, plaintiffs implicitly invoke the
familiar negative-implication canon—the “expression of one
thing implies the exclusion of others (expressio unius est exclusio
alterius).” Antonin Scalia & Bryan A. Garner, Reading Law: The
Interpretation of Legal Texts 107 (2012). See Texas Rural Legal
Aid, Inc. v. Legal Services Corp., 940 F.2d 685, 694 (D.C. Cir.
1991), stating that the “expressio maxim” may be “inappropriate
in the administrative context” in light of cases such as Mourning
v. Family Publications Service, Inc., 411 U.S. 356, 372 (1973).

App-7
it would be acting “not in accordance with law” under
the Administrative Procedure Act. 5 U.S.C.
§ 706(2)(A).6
Plaintiffs’ argument presents an obvious
question: “not in accordance with” what “law”? The
Commission has a longstanding regulation requiring
it to make public its action terminating a proceeding
and “the basis therefor.” 11 C.F.R. § 111.20(a).
Does an agency’s disclosure regulation constitute
“law” within the meaning of § 706 of the
Administrative Procedure Act? A similar question was
presented in Chrysler Corp. v. Brown, 441 U.S. 281
(1979). The Supreme Court answered: “authorized by
law” includes “properly promulgated, substantive
agency regulations.” 441 U.S. at 295. We gave the
same answer in Bartholdi Cable Co. v. FCC, 114 F.3d
274,281 (D.C. Cir. 1997). Although these FOIA cases
were interpreting the Trade Secrets Act, 18 U.S.C.
§ 1905, their statements apply as well to the quoted
language in the Administrative Procedure Act.
Plaintiffs have not argued that § 111.20(a) is
anything other than a “properly promulgated”
regulation.7 FECA empowers the Commission to
6 The trust and trustee dispute the release of their names and
the Commission’s planned removal of the redactions. They have
not contested the release of the documents in redacted form,
which has already occurred.
7 See Bartholdi, 114 F.3d at 281-82:
Bartholdi argues that § 0.457 of the Commission’s
regulations does not meet the definition of “authorized
by law” under Chrysler. But Bartholdi did not raise
this challenge before the Commission. Bartholdi’s
application for review made no mention of Chrysler.

App-8
“prescribe Q forms and to make, amend, and repeal
such rules . . . as are necessary to carry out the
provisions of this Act,” 52 U.S.C. § 30107(a)(8), and to
“formulate policy with respect to” the Act, 52 U.S.C.
§ 30106(b)(1).8 When an agency’s “empowering
provision” contains such language, the courts will
sustain a regulation that is “reasonably related” to the
purposes of the legislation. Mourning, 411 U.S. at 369
(quoting Thorpe u. Hous. Auth. of Durham, 393 U.S.
268, 280 (1969)). This regulation—like the regulation
in Mourning—requires more disclosure than the
governing statute, but that is no reason for rejecting
it. Id. at 371-73. The Supreme Court long has
recognized that “[g] rants of agency authority
comparable in scope” to FECA’s provisions at issue
here “have been held to authorize public disclosure of
information . . ., as the agency may determine to be
proper upon a balancing of the public interests
involved.” FCC u. Schreiber, 381 U.S. 279, 291-92
(1965).

Because Bartholdi failed to challenge the validity of
§ 0.457 before the Commission, we decline to consider
the issue.
See also Carducci v. Regan, 714 F.2d 171, 177 (D.C. Cir. 1983)
(“[AJppellate courts do not sit as self-directed boards of legal
inquiry and research, but essentially as arbiters of legal
questions presented and argued by the parties before them.”).
8 Congress gave the Commission the “primary and substantial
responsibility for administering and enforcing [FECA],”
“extensive rulemaking and adjudicative powers,” and the
authority to “formulate general policy with respect to the
administration of [FECA].” Buckley v. Valeo, 424 U.S. 1, 109, 110
(1976) (per curiam) (citation omitted); see also 52 U.S.C.
§ 30111(a)(8).

App-9
As to this particular regulation’s relationship to
the purposes of FECA, we have recognized that
“deterring
future
violations
and
promoting
Commission accountability may well justify releasing
more information than the minimum disclosures
required by” the statute. AFL-CIO, 333 F.3d at 179.
The Commission’s 2016 Disclosure Policy, adopted in
response to AFL-CIO, considered the public and
private interests involved and reasonably concluded
that disclosure of the contemplated documents “tilts
decidedly in favor of public disclosure, even if the
documents reveal some confidential information.”
Disclosure Policy, 81 Fed. Reg. at 50,703.9
II.
Plaintiffs claim that the First Amendment to the
Constitution barred the Commission from publicly
identifying them. We agree with the district court that
Citizens United u. FEC, 558 U.S. 310 (2010), forecloses
their argument. The Supreme Court there rejected the
argument that FECA’s disclosure provisions violated
the First Amendment. 558 U.S. at 366-71. The
provision requiring contributions to be made in the
name of the source of the funding—52 U.S.C.
§ 30122—is thus plainly constitutional. Citizens
United left open the possibility of an as-applied First
Amendment challenge, but only if the donor proved
9 When the Commission ended its investigation and closed the
file, it “terminate [d] its proceedings” within the meaning of 11
C.F.R. § 111.20(a), as the district court held. The “proceedings”
included an investigation of the plaintiffs and a Commission vote
on whether to take action against them. The documents
containing plaintiffs’ names reveal the “basis” for the
Commission’s actions. Doe v. FEC, 302 F. Supp. 3d at 172-73.

App-10
that revealing its identity would probably bring about
threats or reprisals. 558 U.S. at 370. Plaintiffs
provided no such evidence and did not allege that they
would be subject to threats or reprisals. They did claim
that disclosing their identity would “chill” them from
engaging in political activity. But this does not
distinguish them from others who make campaign
contributions. And in any event, the Supreme Court
rejected just such a claim of “chill” in Citizens United.
Id.; see also AFL-CIO, 333 F.3d at 176-178.
III.
This brings us to plaintiffs’ argument resting on
the Freedom of Information Act. Under FOIA, 5 U.S.C.
§ 552, federal agencies must make their records
available to the public. There are several exceptions.
One is for “records or information compiled for law
enforcement purposes, but only to the extent that the
production of such law enforcement records or
information . . . could reasonably be expected to
constitute an unwarranted invasion of personal
privacy.” 5 U.S.C. § 552(b)(7)(C). This exemption,
plaintiffs claim, entitled them to an injunction
preventing the Commission from disclosing their
identities.
This is not a run-of-the-mill “reverse-FOIA” case.
In the typical “reverse-FOIA” case an entity submits
information to an agency and later “seeks to prevent
the agency that collected the information from
revealing it to a third party in response to the latter’s
FOIA request.” CNA Fin. Corp. v. Donovan, 830 F.2d
1132, 1133 n.l (D.C. Cir. 1987).
Here neither the trust nor the trustee provided
any of the information the Commission would release.

App-11
In fact, when the Commission served these plaintiffs
with a subpoena seeking information, they refused to
comply and provided no information. For another
thing, when the Commission announced its intention
to disclose the documents containing plaintiffs’ names,
no FOIA request was pending.
In these circumstances, FOIA cannot be used to
prevent the Commission from publicly revealing
plaintiffs’ identities. FOIA is a disclosure statute. If an
agency wrongly withholds information in the face of a
proper FOIA request, it violates that statute. But if an
agency discloses information pursuant to other
statutory provisions or regulations, the agency cannot
possibly violate FOIA. Chrysler Corp. v. Brown held
that the FOIA exemptions regime in § 552(b) on which
the trust and the trustee rely “demarcates the
agency’s obligation to disclose; it does not foreclose
disclosure.” 441 U.S. at 292. In other words, “Congress
did not limit an agency’s discretion to disclose
information when it enacted the FOIA.” Id. at 294; see
also Bartholdi, 114 F.3d at 281.10
In any event, there is nothing to plaintiffs’
complaint that their privacy would be unduly
compromised if their identities were revealed. They
emphasize that the Commission did not determine
whether they violated FECA. That is true but beside
the point. The conciliation agreement, the General
Counsel’s report, and other documents contained
evidence that the trust and its trustee “assist[ed] [a]
10 Many reverse-FOIA cases are explained in light of the Trade
Secrets Act, 18 U.S.C. § 1905, which can constrain an agency’s
disclosure discretion, see, e.g., Canadian Commercial Corp. v.
Dep’t of the Air Force, 514 F.3d 37, 39 (D.C. Cir. 2008).

App-12
person in making a contribution in the name of
another.”
11
C.F.R.
§ 110.4(b)(l)(iii).11
The
conciliation agreement stated that Government
Integrity, LLC agreed not to contest its violation of
FECA’s bar agains^naking^^xmtributioi^r^he
name of another.
We add that, under Exemption 7(C), the
Commission would not have had discretion to
withhold information identifying the trust in response
to a FOIA request. Revealing the name of the trust
could not constitute an “unwarranted invasion of
personal privacy” because “personal privacy” in
Exemption 7(C) refers to “individuals,” not
“corporations or other artificial entities.” FCC v.
AT&T Inc., 562 U.S. 397, 403 (2011). To state the
obvious, a trust is an artificial entity. The Commission
thus not only had the authority to release the trust’s
identity, it may well have had the legal duty to do so
had that information been requested.
As to the trustee, plaintiffs insist that if and when
the Commission makes the name of the trust public—
as it must—this would be tantamount to revealing the
name of the trustee as well. Does’ Br. 26-27. Even if
this were so, the trustee’s privacy interest in his
representational capacity is minimal. In addition
“[t]he disclosures with which the statute is concerned
11 This regulation applies to those who “initiate or instigate or
have some significant participation” in the making of a
contribution in the name of another. See Affiliated Committees,
Transfers, Prohibited Contributions, Annual Contribution
Limitations and Earmarked Contributions, 54 Fed. Reg. 34,098,
34,105 (Aug. 17, 1989).

App-13
are those of ‘an intimate personal nature’ such as
marital status, legitimacy of children, identity of
fathers of children, medical condition, welfare
payments, alcoholic consumption, family fights, and
reputation. Sims v. CIA, 642 F.2d 562,574 (D.C. Cir.
1980). Information relating to business judgments and
relationships does not qualify for exemption. See id. at
575. This is so even if disclosure might tarnish
someone’s professional reputation. See Cohen v. EPA,
575 F. Supp. 425, 429 (D.D.C. 1983).” Wash. Post Co.
v. U.S. Dep’t of Justice, 863 F.2d 96, 100 (D.C. Cir.
1988).12 While the Commission may nevertheless have
had discretion to withhold the trustee’s name, it was
not required to do so.
We therefore affirm the judgment of the district
court, and remand for proceedings consistent with this
opinion.
So ordered.

12 SafeCard Services, Inc. v. SEC, 926 F.2d 1197 (D.C. Cir.
1991), decided only that an agency may—not must—withhold
“the names and addresses of third parties mentioned in witness
interviews, of customers listed in stock transaction records
obtained from investment companies, and of persons in
correspondence with the” agency. Id. at 1205.

App-14
KAREN LECRAFT HENDERSON, Circuit
Judge, concurring in part and dissenting in part: I
agree with much of the Court’s opinion which ably
disposes of the plaintiffs’ Freedom of Information Act
and First Amendment arguments.1 But I believe my
colleagues err in concluding that the Federal Election
Commission (Commission) has authority under the
Federal Election Campaign Act of 1971, Pub. L. No.
92-225, 86 Stat. 3, as amended (codified at 52 U.S.C.
§§ 30101 et seq) (FECA or Act), to disclose documents
from MUR 6920 that reveal the plaintiffs’ identities.
The Commission “has as its sole purpose the
regulation of core constitutionally protected activity.”
AFL-CIO v. FEC, 333 F.3d 168, 170 (D.C. Cir. 2003).
Its “investigations into alleged election law violations
frequently involve subpoenaing materials of a ‘delicate
nature’,” materials regarding “political expression and
association” that go to “the very heart of the” First
Amendment. Id. (quoting FEC v. Machinists NonPartisan Political League, 655 F.2d 380,388 (D.C. Cir.
1981)). These serious privacy and First Amendment
interests make holding the statutory line even more
critical. I would preserve the delicate balance that the
Congress struck and, accordingly, limit the
Commission to making only those disclosures
expressly authorized by FECA. The disclosures at
issue, I submit, are not among them.
The plaintiffs—a trust and a trustee—gave money
to Government Integrity, LLC. Government Integrity
immediately transferred the money to the American
Conservative Union, which, in turn, made a large
1 Accordingly, I concur in Parts II and III of the majority
opinion.

App-15
contribution to a political action committee, Now or
Never PAC. The Commission opened an investigation
into the transfers and the contribution, naming as
respondents, inter alia, Government Integrity, the
American Conservative Union and Now or Never PAC.
See 52 U.S.C. § 30109(a)(l)-(2) (granting authority to
commence investigation upon receiving complaint).
Acting under authority given him by 11 C.F.R.
§ 111.8(a), the Commission General Counsel asked the
Commission to “find reason to believe” that the trust
and trustee plaintiffs “ha[ve] committed... a
violation” and should be added as respondents. In a 23 vote, the Commission declined the request; the three
Commissioners voting “no” explained that their
decision was based on prosecutorial discretion—
namely, a rapidly approaching statute of limitations
and a novel theory supporting the trust/trustee
plaintiffs’ culpability under FECA. The Commission
later entered a conciliation agreement with the
respondents, who admitted violating FECA.
In closing MUR 6920, the Commission plans to
make public its investigative files, invoking as
authority a FECA regulation and a policy statement.
The disclosure regulation provides: “[i]f a conciliation
agreement is finalized, the Commission shall make
public such conciliation agreement forthwith.”
11 C.F.R. § 111.20(b). It also declares: “[i]f the
Commission makes a finding of no reason to believe or
no probable cause to believe or otherwise terminates
its proceedings, it shall make public such action and
the basis therefor.” Id. § 111.20(a) (emphasis added).
The disclosure regulation does not specify which
documents are included in the “basis” for the
Commission’s action. Id. The Commission fills the gap

App-16
with a policy statement, which identifies twenty-one
“categories
of
documents
integral
to
its
decisionmaking process that will be disclosed upon
termination of an enforcement matter.” Disclosure of
Certain Documents in Enforcement and Other Matters,
81 Fed. Reg. 50,702 (Aug. 2, 2016). The plaintiffs
began this litigation pursuant to the Administrative
Procedure Act (APA), 5 U.S.C. §§ 500 et seq, to stop the
Commission from revealing their identities in its MUR
6920 disclosures.
The APA requires a reviewing court to “set aside
agency action” that is “not in accordance with law.” 5
U.S.C. § 706(2)(A). The plaintiffs assert that FECA’s
plain text prohibits the Commission from making
public the documents revealing their identities and
thus any such disclosure is “not in accordance with
law.”2 Id. It is hornbook law that an agency cannot
grant itself power via regulation that conflicts with
plain statutory text. Orion Reserves Ltd. P’ship v.
Salazar, 553 F.3d 697, 703 (D.C. Cir. 2009)
(“[Regulation contrary to a statute is void.”); Murphy
v. IRS, 493 F.3d 170, 176 n* (D.C. Cir. 2007) (if “the
regulation conflicts with the plain text, . . . the statute
clearly controls”). As a result, the Commission cannot
use a regulation or policy statement to contravene the
plain limits that FECA sets on its disclosure
authority. This case, then, turns on whether FECA
2 Although the plaintiffs’ argument focuses on the
Commission’s lack of authority to release certain documents
under FECA, the plaintiffs request as relief only redaction of
their own identities, not withholding of the documents in toto.
The Commission does not argue-nor do my colleagues suggest—
that the plaintiffs’ failure to ask for more expansive relief in any
way affects their merits argument.

App-17
prohibits-by necessary implication-the disclosure of
records containing the plaintiffs’ identities. If so, the
Commission’s intended disclosures are unlawful and
in violation of the APA. 1A Sutherland Statutory
Construction § 31.02, at 521 (4th ed. 1985) (“The
legislative act is the charter of the administrative
agency and administrative action beyond the
authority conferred by the statute is ultra vires.”). If
not, the plaintiffs’ challenge fails.
Section 30109 of FECA sets forth the
Commission’s disclosure authority. 52 U.S.C. § 30109.
It requires disclosure under two circumstances. First,
“[i]f a conciliation agreement is agreed upon by the
Commission and the respondent, the Commission
shall make public any conciliation agreement signed
by both the Commission and the respondent.” Id
§ 30109(a)(4)(B)(ii). Second, “[i]f the Commission
makes a determination that a person has not violated
this Act or chapter 95 or chapter 96 of Title 26, the
Commission shall make public such determination.”
Id. These are the only two situations in which FECA
affirmatively requires the Commission to make
disclosures.
But does FECA permit additional non-required
disclosures? I think not. First, section 30109 does not
expressly grant the Commission discretion to make
additional disclosures. An “agency literally has no
power to act. . . unless and until Congress confers
power upon it.” La. Pub. Serv. Comm’n v. FCC, 476
U.S. 355, 357 (1986). We have held, as a corollary to
that principle, “[t]he duty to act under certain
carefully defined circumstances simply does not
subsume the discretion to act under other, wholly

App-18
different, circumstances, unless the statute bears such
a reading.” Ry. Labor Execs.’Ass’n v. Nat’l Mediation
Bd., 29 F.3d 655, 671 (D.C. Cir. 1994) (en banc). The
Congress has charged the Commission with making
limited disclosures in two carefully defined
circumstances and there is no textual basis for
concluding that additional discretionary disclosure
authority exists.
Second, section 30109 includes confidentiality
provisions that expressly forbid the Commission from
making its investigative files public unless disclosure
is otherwise authorized. The first provision states:
“[a]ny notification or investigation . . . shall not be
made public by the Commission or by any person
without the written consent of the person receiving
such notification or the person with respect to whom
such
investigation
is
made.”
52
U.S.C.
§ 30109(a)(12)(A). The prohibition against revealing
“any investigation” includes-at a minimuminformation that would confirm the existence of an
investigation. See AFL-CIO, 333 F.3d at 174 (“[T]he
Commission may well be correct. . . that Congress
merely intended to prevent disclosure of the fact that
an investigation is pending.”). The second provision
provides: “[n]o action by the Commission or any
person, and no information derived, in connection with
any conciliation attempt by the Commission . . . may
be made public by the Commission without the written
consent of the respondent and the Commission.” Id.
§ 30109(a)(4)(B)(i). The section 30109 confidentiality
provisions are robust: nearly any disclosure of an
investigatory file will reveal the existence of an
investigation
and
thereby
violate
section
30109(a)(12)(A). See In re Sealed Case, 237 F.3d 657,

App-19
666-67 (D.C. Cir. 2001) (section 30109(a)(12)(A)
“plainly prohibit[s] the FEC from disclosing
information concerning ongoing investigations under
any circumstances without the written consent of the
subject of the investigation”). Moreover, the section
30109 confidentiality provisions do not have
expiration dates: they continue to bind the
Commission unless and until another provision of
section 30109 authorizes disclosure. See 52 U.S.C.
§ 30109(a)(4)(B)(i), (a)(12)(A).
Jn my view, FECA’s disclosure scheme is
comprehensive and sets forth precisely when the
Commission can and cannot make its records public.
The Commission must make limited disclosures in
two—and only two—cases: (1) upon entering a signed
conciliation agreement and (2) after determining that
a person did not violate FECA. See id.
§ 30109(a)(4)(B)(ii). In all other cases, the Commission
must keep its investigatory information confidential.
See id. § 30109(a)(4)(B)(i), (a)(12)(A). The statute does
not authorize any discretionary disclosure.3

3 Contrary to the majority’s suggestion, my reading of FECA
does not rely on the canon of construction expressio unius est
exclusio alterius, Maj. Op. at 6 n.4, a so-called “feeble helper” in
the administrative law context Adirondack Med. Ctr. v. Sebelius,
740 F.3d 692,697 (D.C. Cir. 2014). Expressio unius, like other
canons of construction, sheds light on the meaning of statutory
text. See Connecticut Nat’l Bank v. Germain, 503 U.S. 249, 253
(1992) (“[CJanons of construction are no more than rules of thumb
that help courts determine the meaning of legislation . . . .”). But
we do not use statutory construction canons if the statutory text
is plain. Id. at 253-54. FECA’s disclosure provisions are plain as
day and the expressio unius canon is therefore inapplicable.

App-20
Neither mandated disclosure under FECA
authorizes the Commission to release documents
containing the plaintiffs’ identities. Regarding the
first, the Commission entered a conciliation
agreement in MUR 6920 and the plaintiffs do not take
issue with the Commission making that agreement
public.
See id § 30109(a)(4)(B)(ii).
But the
Commission’s power to release the signed conciliation
agreement plainly does not include the remainder of
its investigative file. Id. (“If a conciliation agreement
is agreed upon by the Commission and the respondent,
the Commission shall make public any conciliation
agreement signed by both the Commission and the
respondent.”). Regarding the second mandated
disclosure—a no
violation determination—-the
Commission concedes that not every enforcement
. matter ends with a determination of liability vel non.
Indeed, the Commission sometimes decides against
pursuing an investigation as a matter of prosecutorial
discretion. See, e.g., Citizens for Responsibility &
Ethics in Washington v. FEC, 892 F.3d 434,438 (D.C.
Cir. 2018). That is what happened here. The
Commission declined to pursue enforcement against
the two plaintiffs as a matter of prosecutorial
discretion, citing a rapidly approaching statute of
limitations and a novel theory of liability. Because
neither basis of disclosure under FECA applies, I
believe the Commission’s decision to release its
documents containing the plaintiffs’ identities is
contrary to law and should be enjoined. Cf. In re
Sealed Case, 237 F.3d at 666-67.
The majority reaches a different conclusion
without discussing FECA’s disclosure provisions. See
Maj. Op. at 6-9. It instead upholds the Commission’s

App-21
position as a permissible exercise of its general power
to make rules “as are necessary to carry out the
provisions of’ FECA, 52 U.S.C. § 30107(a)(8), and to
“formulate policy with respect to” FECA, id.
§ 30106(b)(1). The key to the majority’s reading is the
United States Supreme Court’s holding in Mourning
u. Family Publications Service, Inc., which declared
that “[wjhere the empowering provision of a statute
states simply that the agency may ‘make . . . such
rules and regulations as may be necessary to carry out
the provisions of this Act,’. . . the validity of a
regulation promulgated thereunder will be sustained
so long as it is ‘reasonably related to the purposes of
the enabling legislation.’” 411 U.S. 356, 369 (1973)
(alteration in original) (quoting Thorpe v. Housing
Auth. of City of Durham, 393 U.S. 268, 280-81 (1969)).
Applying Mourning, my colleagues conclude that the
Commission may use its general power to promulgate
regulations to authorize disclosures in addition to
those carefully limited by section 30109. Maj. Op. at 78. In their view, “[t]he Commission’s 2016 Disclosure
Policy . . . considered the public and private interests
involved and reasonably concluded that disclosure of
the contemplated documents ‘tilts decidedly in favor of
public disclosure, even if the documents reveal some
confidential information.’” Maj. Op. at 8-9 (quoting
Disclosure of Certain Documents in Enforcement and
Other Matters, 81 Fed. Reg. at 50,703)).
But Circuit precedent rejects this generous
reading of Mourning. In Colorado River Indian Tribes
v. National Indian Gaming Commission, we were
called upon to decide whether the Indian Gaming
Regulatory Act gives the National Indian Gaming
Commission “authority to promulgate regulations

App-22
establishing mandatory operating procedures for
certain kinds of gambling in tribal casinos.” 466 F.3d
134, 135 (D.C. Cir. 2006). Unable to find a statutory
hook for its regulation, the Gaming Commission,
invoking Mourning, rested on its general authority to
promulgate rules carrying out the Indian Gaming
Regulatory Act and the Act’s underlying policy goals.
Id. at 139. We rejected its defense: “[a]n agency’s
general rulemaking authority does not mean that the
specific rule the agency promulgates is a valid exercise
of that authority.” Id. To the contrary, “[a]ll questions
of government are ultimately questions of ends and
means” so “[ajgencies are therefore ‘bound, not only by
the ultimate purposes Congress has selected, but by
the means it has deemed appropriate, and prescribed,
for the pursuit of those purposes.’” Id. (first alteration
in original) (first quoting-Alai 7 Fed’n of Fed. Emps. u.
Greenberg, 983 F.2d 286, 290 (D.C. Cir. 1993); then
quoting MCI Telecomms. Corp. v. AT&T, 512 U.S. 218,
231 n.4 (1994)). Under Mourning, then, we focus both
on the goals the Congress seeks to achieve and the
mechanism it uses to achieve them. Id. at 140
(Congress sought to protect gaming business integrity
not generally but instead “through the ‘statutory basis
for the regulation of gambling’ provided in the Act”
(quoting 25 U.S.C. § 2702(2))). “This le[d] us back to
the opening question—what is the statutory basis
empowering the Commission to regulate” the gaming
at issue? Id. “Finding none,” we held that the
regulation was invalid. Id.
Mourning does not resolve this case. See
NetCoalition u. SEC, 615 F.3d 525, 533-34 (D.C. Cir.
2010) (“[A] statute’s ‘general declaration of policy’ does
not protect agency action that is otherwise

App-23
inconsistent with the congressional delegation of
authority for ‘[ajgencies are . . . “bound, not only by
the ultimate purposes Congress has selected, but by
the means it has deemed appropriate, and prescribed,
for the pursuit of those purposes.’”” (second and third
alterations in original) (quoting Colorado River Indian
Tribes, 466 F.3d at 139)). It instead “leads us back to
the opening question”—what disclosure mechanism
did the Congress use to further FECA’s underlying
policy goals of deterring election law violations and
promoting Commission accountability? Colorado
River Indian Tribes, 466 F.3d at 140; see also AFLCIO, 333 F.3d at 179 (listing FECA policy goals
related to disclosure). I have already given my answer:
FECA allows disclosure in two—and only two—
circumstances. Because neither circumstance exists
here, I believe the Commission is without authority to
release the documents containing the plaintiffs’
identities and would therefore reverse the district
court.
Accordingly, I respectfully dissent from Part I of
the majority opinion.

App-24
Appendix B
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
No. 18-5099
John Doe, l and John Doe, 2,
Appellants,
v.
Federal Election Commission,
Appellee.
Appeal from the United States District Court
for the District of Columbia
(No. l:17-cv-02694)
Filed: July 11, 2019
Before: GARLAND, Chief Judge-, Henderson,
Rogers, Tatel, Griffith, Srinivasan, Millett,
Pillard, Wilkins, Katsas, and Rao, Circuit Judges;
Randolph, Senior Circuit Judge
ORDER
Upon consideration of appellants’ petition for
rehearing en banc, the response thereto, and the
absence of a request by any member of the court for a
vote it is

App-25
ORDERED that the petition be denied.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/
Ken R. Meadows
Deputy Clerk

App-26
Appendix C
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
No. 17-2694
John Doe, l and John Doe, 2,

Plaintiffs,
v.
Federal Election Commission,
Defendant.
Filed: March 23, 2018
Amended: May 29, 2018
AMENDED MEMORANDUM OPINION
Plaintiffs John Doe 1 and John Doe 2, a trustee
and the trust, challenge the decision of the Federal
Election Commission (“FEC”) to disclose their
identities when it publicly releases the file pertaining
to an investigation that is now closed. Plaintiffs,
whose names and identifying information appear in
the file, assert that the agency’s decision is unlawful
because releasing their identities would violate the
Federal Election Campaign Act and its regulations,
the Freedom of Information Act, and plaintiff s rights
under the First Amendment of the U.S. Constitution.
They have brought this case under the Administrative
Procedure Act and ask the Court to enjoin the agency

App-27
from disclosing their identities as part of its release of
the investigative file.
For the reasons explained below, the Court will
not enjoin defendant’s disclosure of plaintiffs’
identities pursuant to the agency’s disclosure policy.

BACKGROUND
The Federal Election Campaign Act (“FECA” or
“the Act”) is a statute that imposes extensive
recordkeeping and disclosure requirements of
campaign contributions in an effort “to remedy
corruption of the political process.” FEC v. Akins, 524
U.S. 11, 11 (1998). Among its requirements, the Act
prohibits “mak[ing] a contribution in the name of
another person or knowingly permitting] his name to
be used to effect such a contribution” or “knowingly
accepting] a contribution made by one person in the
name of another person.” 52 U.S.C. § 30122. The Act
established the Federal Election Commission, and it
requires the agency to investigate violations of the
Act. 52 U.S.C. §§ 30l06(a)-(b), 30107(a). It also sets
forth requirements for how the agency’s investigations
are handled, including the public disclosure of the
results of investigations and of the materials and
information uncovered in them. See, e.g., 52 USC
§§ 30109(a)(12)(A); (a)(4)(B)(ii). This case concerns
whether the identities of an individual and an entity,
who were not named as respondents in an FEC
investigation, but were alleged to have had some role
in or connection to the activities being investigated,
may be disclosed by the agency as part of the release
of its investigative materials.

App-28
FACTUAL AND PROCEDURAL HISTORY
On February 27, 2015, the FEC received an
administrative
complaint
from
Citizens
for
Responsibility and Ethics in Washington (“CREW”),
alleging that American Conservative Union, Now or
Never PAC, the PAC’s treasurer James C. Thomas III,
and an unknown respondent violated the Federal
Election Campaign Act when American Conservative
Union made a $1.71 million contribution, which it
received from an unknown respondent, to Now or
Never PAC. See Pis.’ Emergency Mot. for TRO and
Prelim. Inj. and Mem. of P. & A. in Supp., (Sealed)
[Dkt. # 4],i (Redacted) [Dkt. # 13] (“Pis.’ Mot.”) at 2-3;
Decl. of John Doe 1, (Sealed) [Dkt. # 4-1], (Redacted)
[Dkt. # 13-1] U 3; Resp. to Pis.’ Mot., (Sealed) [Dkt. #
8] (Redacted) [Dkt. # 16] (“Defs. Opp.”) at 1; see also
CREW’s
Admin.
Compl.,
^ 1,
13-20,
https://www.fec.gov/files/legal/murs/6920/1704443434
5.pdf.
The agency initiated an investigation based on
these allegations, Matter Under Review (“MUR”)
6920, and it identified Government Integrity LLC as
the “unknown respondent.” Def.’s Opp. at 1. The FEC’s
1 On December 18, 2017, the court granted plaintiffs’ motion to
seal this case. Order [Dkt. # 5] (allowing the case to proceed
temporarily under seal). After the case was assigned to the
undersigned judge, the Court ordered the parties to file public,
redacted versions of their previously sealed pleadings on the
docket, and by agreement of the parties, the FEC published a
redacted version of the investigative file in dispute on its website
at https://www.fec.gov/data/legal/matter-under-review/6920/. See
Min. Order (Dec. 18, 2017); Min. Order (Dec. 19, 2017). This
memorandum opinion cites to the public versions of the filings in
this case.

App-29
Office of General Counsel (“OCG”) learned through
discovery that Government Integrity wired $1.8
million to American Conservative Union on the same
day that American Conservative Union sent $1.7
million to Now or Never PAC and that John Doe 2—
which had a relationship with Government
Integrity2—had transmitted funds to Government
Integrity immediately before that.3 See Third General
Counsel’s
Report
(Sept.
15,
2017)
at
6,
https://www.fec.gov/files/legal/murs/6920/1704443548
4.pdf. ■

On August 10, 2017, the OGC served a subpoena
for information on plaintiffs John Doe 1 and John Doe
2. Def.’s Opp. at 1-2. Plaintiffs refused to respond to
the subpoena, Def.’s Opp. at 1-2, and on September 15,
2017, the OGC recommended that the Commission
2 See FEC Memorandum, Circulation of Discovery Documents
(Aug. 4, 2017) at 2, https://www.fec.gov/files/legal/murs/6920/
17044435462.pdf. (“In response to our request for information
regarding the known principals and agents of [Government
Integrity] LLC, Thomas states [REDACTED] ‘acting as trustee of
an entity named [REDACTED]’ [REDACTED] appointed GI
LLC’s now-deceased principal.”).
3 “On August 10, 2017, the Commission served [REDACTED]
through its trustee, [REDACTED] with a Subpoena and Order
requesting the production of documents and the answers to
interrogatories regarding its role in the transaction and the
source of the funds used to make a contribution to Now or Never
PAC. [REDACTED] response was due on August 25, 2017. The
day before response was due, [REDACTED] newly retained
counsel requested an extension of seventeen days. Because of
statute of limitations concerns, OGC was unable to grant the
request. Nonetheless, counsel for [REDACTED] stated that
[REDACTED] would not respond to the Subpoena and Order
until September 11, 2017.” Third General Counsel’s Report at 5.

App-30
find reason to believe that plaintiffs violated 52 U.S.C.
§ 30122 and authorize the filing of a civil action to
enforce the subpoena. Pis.’ Reply Mem. in Supp. of
Pis.’ Mot., (Sealed) [Dkt. # 8]; (Redacted) [Dkt. # 25]
(“Pis.’ Reply”) at 3; Third General Counsel’s Report at
12-13.
On September 20, 2017, the Commission rejected
the OGC recommendation by a vote of 3 to 2. Pis.’
Reply at 3; Def.’s Opp. at 2; Certification (Sept. 20,
2017), https://www.fec.gov/files/legal/murs/6920/1704
4434647.pdf. That same day, the Commission voted 5
to 0 to authorize the OGC to pursue conciliation with
American Conservative Union and “pre-probable
cause” conciliation with Government Integrity, Now or
Never PAC, and Mr. Thomas. Id. Finally, it voted 5 to
0 to “[t]ake no action at this time on the remaining
recommendations” of the OGC. Id. The FEC did not
inform plaintiffs of the OGC’s allegations and
recommendations. Pis.’ Reply at 3-4.
Thereafter, the agency entered into conciliation
discussions with respondents to the investigation and
ultimately reached a conciliation agreement with
them. See Def.’s Opp. at 2; Pis.’ Reply at 4. On October
24, 2017, the Commission voted unanimously to
approve the conciliation agreement, which involved
Government Integrity, American Conservative Union,
Now or Never PAC, and James C. Thomas III. Def.’s
Opp.
at 2;
Certification (Oct.
24,
2017),
https://www.fec.gov/files/legal/murs/6920/1704443474
2.pdf. That agreement concluded MUR 6920. Id.
Government Integrity agreed not to contest the
Commission’s finding against it any further, and the

App-31
respondents collectively agreed to pay a civil penalty
of $350,000. Def.’s Opp. at 2.
On November 3, 2017, the FEC notified CREW of
the results of its investigation, advising that:
the Commission found that there was
probable cause to believe American
Conservative Union violated 52 U.S.C.
§ 30122 .... The Commission also found
reason to believe that Government Integrity,
LLC, violated 52 U.S.C. § 30122; that Now or
Never PAC and James C. Thomas, III in his
official capacity as treasurer knowingly and
willfully violated 52 U.S.C. §§ 30122 and
30104(b); and that James C. Thomas, III
knowingly and willfully violated 52 U.S.C.
§§ 30122 and 30104(b).
Letter from Antoinette Fuoto, FEC, to Anne L.
Weismann, CREW (Nov. 3, 2017), https://www.fec.gov/
files/legal/murs/6920/17044434744.pdf (“FEC Closing
Letter”), at 1.
The FEC also advised that pursuant to its
disclosure policy, “[documents related to the case
[would] be placed on the public record within 30
days”—or by December 3, 2017. FEC Closing Letter at
1, citing Disclosure of Certain Documents in
Enforcement and Other Matters, 81 Fed. Reg. 50,702
(Aug. 2, 2016) (“Disclosure Policy”).
Counsel for plaintiffs and counsel for Government
Integrity objected to the publication of their clients’
names and identifying information in connection with
the release of the investigative file. Pis.’ Mot. at 3.
While the agency was considering these objections,
and after the 30-day deadline to release the

App-32
investigation file had passed, CREW contacted the
agency to ask when it would publish the file. Def.’s
Opp. at 3.
On December 12, 2017, the FEC told counsel for
Government Integrity that, pursuant to its disclosure
policy, the agency would not redact plaintiffs’ names
when it released the investigative file. Pis.’ Mot. at 3.
Two days later, on December 14, the FEC advised
plaintiffs’ counsel of this decision. Pis.’ Reply at 4;
Def.’s Opp. at 3. Plaintiffs asked the agency to wait
two business days to publish the file, and the agency
agreed to wait until December 18, 2017 at 5:00 p.m. or
later to do so. Pis.’ Mot. at 4; Def.’s Opp. at 3.
On the next day, December 15, 2017, plaintiffs
filed this lawsuit. Compl., (Sealed) [Dkt. # 1];
(Redacted) [Dkt. # 12]; Pis.’ Mot. They filed a sealed
complaint and a sealed motion for a temporary
restraining order, asking the Court to enjoin the
agency from releasing their identities in its
investigative file. On December 18, 2017, defendant
filed its opposition to plaintiffs’ motion, Def.’s Opp.,
and on that day, the Court held a sealed hearing in
which the FEC agreed to redact plaintiffs’ names and
any other identifying information from its
investigative file and not publish the redacted
information until further order of the Court in this
case. Min. Order (Dec. 18. 2017). In light of that
agreement, the Court denied plaintiffs’ motion for a
temporary restraining order as moot and consolidated
the motion for a preliminary injunction with the
merits of the case. Id., citing Fed. R. Civ. Proc. 65.
On December 19, 2017, Commissioner Ellen
Weintraub released through Twitter a redacted

App-33
version of a Statement of Reasons concerning this
matter and the September 20 vote of 2 to 3 against
authorizing action to enforce the subpoena against
plaintiffs. Pis.’ Reply, Ex. C; Commissioner Weintraub
Statement
of
Reasons,
https://www.fec.gov/
files/legal/murs/6920/17044435456.pdf (“Weintraub
Statement of Reasons”). On December 20, 2017,
Commission Vice Chair Caroline Hunter and
Commissioner Lee Goodman issued their own
Statement of Reasons about the vote. Statement of
Reasons (Dec. 20, 2017), https://www.fec.gov/
files/legal/murs/6920/17044435563.pdf (“Hunter and
Goodman Statement of Reasons”).
On December 22, 2017, defendant filed notice
with the Court that it had published a redacted
version of the investigative file. Notice [Dkt. # 20].. On
January 3, 2018, plaintiffs filed their reply in support
of their motion. Pis.’ Reply. Finally, on February 12,
2018, CREW filed an amicus brief in this matter.4
Brief of CREW and Anne Weismann as Amici Curiae
[Dkt. #45],
STANDARD OF REVIEW
The Administrative Procedure Act (“APA”)
establishes the scope of judicial review of agency
action. See Vermont Yankee Nuclear Power Corp. v.
Natural Res. Def. Council, Inc., 435 U.S. 519, 545-49
(1978). It requires courts to “hold unlawful and set
aside agency action, findings, and conclusions” that
4 CREW filed a motion to intervene in this action on January
3, 2018, Mot. to Intervene by CREW and Anne Weismann [Dkt.
# 22], which the Court denied on January 31, 2018, authorizing
CREW instead to file an amicus curaie brief. See Order [Dkt. #
44]

App-34
are “arbitrary, capricious, an abuse of discretion, or
otherwise not in accordance with law,” in excess of
statutory authority, or “without observance of
procedure required by law.” 5 U.S.C. §§ 706(2)(A), (C)
and (D).
Courts are required to analyze an agency’s
interpretation of a statute by following the two-step
procedure set forth in Chevron U.S.A. Inc. v. Natural
Res. Def. Council, Inc., 467 U.S. 837 (1984). First, the
court must determine “whether Congress has directly
spoken to the precise question at issue.” Id. at 842. “If
the intent of Congress is clear, that is the end of the
matter; for the court, as well as the agency, must give
effect to the unambiguously expressed intent of
Congress.” Id. at 842-43. If the court concludes that
the statute is either silent or ambiguous, the second
step of the court’s review process is to determine
whether the interpretation proffered by the agency is
“based on a permissible construction of the statute.”
Chevron, 467 U.S. at 843.
Once a reviewing court reaches the second step, it
must accord “considerable weight” to an executive
agency’s construction of a statutory scheme it has been
“entrusted to administer.” Id. at 844. “[Ujnder
Chevron, courts are bound to uphold an agency
interpretation as long as it is reasonable—regardless
whether there may be other reasonable or, even more
reasonable, views.” Serono Labs., Inc. v. Shalala, 158
F.3d 1313, 1321 (D.C. Cir. 1998). And the court must
defer to an agency’s reading of its own regulations
unless it is “plainly erroneous or inconsistent with the
regulation.” Id. at 1320 (internal quotation marks
omitted).

App-35
ANALYSIS
The Federal Election Campaign Act has a number
of provisions that address the confidentiality of
investigation materials. The Court has concluded that
the issue cannot be resolved at the Chevron step one
stage, since none of the statutory provision cited by the
parties speaks directly to the matter.
I.

Disclosure in this case is neither barred by
52 U.S.C. § 30109(a)(4)(B)(i), as plaintiffs
contend,
nor
required
by
section
30109(a)(4)(B)(ii), as the FEC contends.
The
Federal
Election
Commission’s
administrative enforcement authority is set forth in 52
U.S.C § 30109. Subsection (a)(4) specifies the informal
methods and procedures the agency may invoke to
correct or prevent violations of FECA. Id. at
§ 30109(a)(4). Subsection (a)(4)(A) requires the FEC to
attempt to correct or prevent a violation through a
number of informal methods, and it authorizes the
agency to enter into conciliation agreements with any
person involved. Id. at § 30109(a)(4)(A). “A
conciliation agreement, unless violated, is a complete
bar to any further action by the Commission.” Id.
The Commission seeks to disclose its investigative
file for MUR 6920 pursuant to subsection (a)(4)(B),
which governs disclosures by the agency within the
context of these conciliation attempts and agreements.
Def.’s Opp. at 4. Subsection (a)(4)(B)(i) states the
following with regard to conciliation attempts:
No action by the Commission or any person,
and no information derived, in connection
with any conciliation attempt by the
Commission under subparagraph (A) may be

App-36
made public by the Commission without the
written consent of the respondent and the
Commission.
52 U.S.C. § 30109(a)(4)(B)(i). Subsection (a)(4)(B)(ii)
deals with conciliation agreements:
If a conciliation agreement is agreed upon by
the Commission and the respondent, the
Commission
shall make
public
any
conciliation agreement signed by both the
Commission and the respondent. If the
Commission makes a determination that a
person has not violated this Act or chapter 95
or chapter 96 of Title 26, the Commission
shall make public such determination.
52 U.S.C. § 30109(a)(4)(B)(ii).
The Court agrees with defendant that subsection
(a)(4)(B)(i) does not bar the agency from making the
disclosures plaintiffs seek to enjoin here, since the
prohibition in that subsection is limited to disclosure
of any action by the Commission, or information
derived “in connection with any conciliation attempt
by the Commission under subparagraph (A).” 52
U.S.C. § 30109(a)(4)(B)(i) (emphasis added). In other
words, that provision relates to the confidentiality of
the conciliation process.
But plaintiffs are correct that subsection
(a)(4)(B)(ii) does not require the agency to disclose the
plaintiffs’ identity either, since the record reflects that
the Commission did not make any “determination”
that plaintiffs had not violated the Act; it simply did
not vote to find reason to believe that they had. See
Exhibit A to Def.’s Opp. [Dkt. # 25-1] at 41-44. Thus,

App-37
subsection (a)(4)(B) does not mandate the outcome in
this case.
II. Disclosure in this case is not barred by
subsection (a)(12)(A), as plaintiffs contend.
Subsection (a)(12)(A) governs the disclosure of
notifications or investigations:
Any notification or investigation made under
this section shall not be made public by the
Commission or by any person without the
written consent of the person receiving such
notification or the person with respect to
whom such investigation is made.
52 U.S.C. § 30109(a)(12)(A). Plaintiffs point to this
subsection to support their argument that disclosure
of their names is prohibited. Pis.’ Mot. at 8-10. The
Commission interprets this provision as governing
disclosures of pending investigations only, and it
argues that any other interpretation would be
inconsistent with the statutory mandate in subsection
(a)(4)(B)(ii) to make certain disclosures at the
conclusion of an investigation. Def.’s Opp. at 6-8.
The Court acknowledges that the issue before it is
not an easy one to resolve, but it is not writing on a
blank slate. The D.C. Circuit has considered the scope
of subsection (a)(12)(A) and disclosures by the FEC in
a case that struck down the agency’s prior disclosure
policy. As the FEC explained in the Federal Register
Notice announcing its current policy:
For approximately the first 25 years of is
existence, the Commission viewed the
confidentiality requirements as ending with
the termination of a case. The Commission

App-38
placed on its public record the documents that
had been considered by the Commissioners in
their determination of a case, minus those
materials exempt from disclosure under the
FECA or under the Freedom of Information
Act....
Disclosure Policy, 81 Fed. Reg. at 50702. In 2001,
however, that policy was challenged in court, and the
district court rejected the agency’s longstanding
interpretation of the confidentiality provision in
subsection (a)(12)(A). See AFL-CIO v. FEC, 111 F.
Supp. 2d 48, 56 (D.D.C. 2001) (holding based on its
plain language that the protections in subsection
(a)(12)(A) do not lapse as soon as the FEC terminates
an investigation).
On appeal, the D.C. Circuit affirmed the district
court’s decision with respect to the disclosure of the
particular materials at issue in that case, but it did
not adopt the lower court’s interpretation. Specifically,
it rejected the district court’s conclusion that the plain
text of subsection (a)(12)(A) clearly prohibited
disclosure and that the case could be resolved at the
first step of the Chevron analysis:
[W]e think the Commission may well be
correct that subsection (a)(12)(A) is silent
with regard to the confidentiality of
investigatory files in closed cases and that
Congress merely intended to prevent
disclosure of the fact that an investigation is
pending. But even if the AFL-CIO could
convince us that its alternate construction
represents the more natural reading of
subsection (a)(12)(A), the fact that the

App-39
provision can support two plausible
interpretations renders it ambiguous for
purposes of Chevron analysis.
AFL-CIO v. FEC, 333 F.3d 168, 174 (D.C. Cir. 2003).5
This ruling is binding on this Court.
The Court of Appeals then proceeded to consider
step two of the Chevron analysis: whether the
Commission’s disclosure policy constituted a
permissible construction of the statute. It observed:
“[a]t this stage of our Chevron analysis, we would
normally accord considerable
deference tothe
Commission . . . particularly where, as here, Congress
took no action to disapprove the regulation when the
agency submitted it for review pursuant to 2 U.S.C.
§ 438(d).” Id. at 175 (citations omitted). At the same
time, however, the Court recognized that “we do not
accord the Commission deference when its regulations
‘create serious constitutional difficulties.’” Id., citing
Chamber of Commerce v. FEC, 69 F. 3d 600, 604-05
(D.C. Cir. 1995). Faced with a policy that called for the
placement of the agency’s entire investigatory file in
the AFL-CIO matter on the public record, the Court
concluded that “the Commission failed to tailor its

5 The Court notes that the concurring opinion in AFL-CIO did
agree with the interpretation that plaintiffs advance here,
finding it to be compelled by the plain text of subsection
(a)(12)(A). See 333 F. 3d at 180-84 (J. Henderson, concurring)
(“While the provision does not state in so many words that ‘no
completed investigation shall be made public,’ that does not mean
it is silent on the matter; whatever the word “investigation”
means,
section
437g(a)(12)(A)
plainly
covers
‘[a]ny. . . investigation,’ ongoing or completed.”) (emphasis in
original).

App-40
disclosure polity to avoid unnecessarily infringing
upon First Amendment rights.” Id.
The Court rejected arguments that the
longstanding disclosure policy warranted Chevron
deference and was essential to public oversight of the
Commission. Id. at 172.
In sum, although we agree that deterring
future violations and promoting Commission
accountability may well justify releasing
more information than the minimum
disclosures required by section 437g(a), the
Commission must attempt to avoid
unnecessarily
infringing
on
First
Amendment interests where it regularly
subpoenas materials of a delicate nature
representing the very heart of the organism
which the first amendment was intended to
nurture and protect. Because 11 C.F.R.
§ 5.4(a)(4) fails to undertake this tailoring, it
creates the serious constitutional difficulties
outlined above. We therefore conclude that
the regulation is impermissible.
Id. at 179 (citations, edits, and quotation marks
omitted).
In light of that ruling, the Commission revised its
disclosure policy, and in 2016, it published the current
policy. Disclosure Policy, 81 Fed. Reg. 50,702. The
FEC undertook to revise the policy as instructed by
the Court of Appeals to “avoid unnecessarily
infringing on First Amendment interests where it
regularly subpoenas materials of a delicate nature.”
Id. at 50,703. The policy narrowed the scope of the
information that would be made public in closed

App-41
investigations to “several categories of documents
integral to its decisionmaking process ... as well as
documents integral to its administrative functions,”
including: administrative complaints, responses to
complaints, certain General Counsel’s Reports,
statements of reasons issued by one or more
Commissioners, conciliation agreements, certain
memoranda and reports from the OGC prepared for
the Commission in connection with specific pending
MURs, and closeout letters. Id. The agency explained:
The categories of documents that the
Commission intends to disclose as a matter of
regular practice either do not implicate the
Court’s concerns or, because they play a
critical role in the resolution of a matter, the
balance tilts decidedly in favor of public
disclosure, even if the documents reveal some
confidential information.
Id.
The Commission maintains in this case that the
disclosure of plaintiffs’ identities as part of the release
of the investigative file for MUR 6920 is appropriate
under the revised disclosure policy because plaintiffs
“are referenced in documents addressing whether
there is reason to believe they committed violations of
FECA, whether discovery should be sought from them
and other parties, and whether there is probable cause
to believe others committed violations of FECA.” Def.’s
Opp. at 5. Defendant notes that the administrative
complainant CREW did not originally name plaintiffs
as respondents because it did not know the source of
the contribution at issue, and it acknowledges that the
Commission did not designate plaintiffs as

App-42
respondents after it became aware of their identities
in the investigation. Id. Nevertheless, according to the
FEC, plaintiffs “featurefd] prominently” in the
investigation, and the Commission asserts that there
is “obvious public importance of making the identities
of plaintiffs transparent where they appear in the
Commission’s deliberations.” Id.
But the application of the policy to plaintiffs has
been challenged on First Amendment grounds, so in
accordance with the approach outlined in AFL-CIO,
the Court must first resolve whether the
Commission’s revised disclosure policy, and its
application to the information plaintiffs are seeking to
shield here, are constitutional before it can conduct
the Chevron step two analysis under the APA and
afford the agency the deference it is seeking in this
case.
III. The Disclosure iri this Case Does Not Violate
the First Amendment
A.

Disclosure of plaintiffs’ identities is not
barred by AFL-CIO.

Plaintiffs rely heavily on AFL-CIO, but the case is
inapposite. The investigatory files at issue in AFL-CIO
involved an estimated 10,000 to 20,000 pages of
materials gathered during the course of the FEC’s
proceedings, none of which it had reviewed before it
dismissed the administrative complaints under
investigation. 333 F.3d at 171-72. The agency’s
disclosure policy at the time required “the release of
all information not expressly exempted by FOIA.” Id.
at 178 (emphasis in original). Pursuant to that policy,
upon closing the investigation, the Commission made
an initial disclosure of 6,000 pages of investigatory

App-43
material. Id. at 172. The AFL-CIO and Democratic
National Committee sued to enjoin disclosure,
providing affidavits attesting that the agency’s initial
and further releases would disclose the names of
hundreds of their volunteers, members, and
employees, making make it more difficult for the
organizations to recruit personnel in the future. Id. at
176. They further attested that the disclosures would
make public “detailed descriptions of training
programs, member mobilization campaigns, polling
data, and state-by-state strategies,” and that
revealing their activities, strategies, and tactics to
their opponents would frustrate their ability to pursue
their political goals effectively. Id. at 176-77.
Faced with these concerns, the D.C. Circuit
concluded that applying the broad disclosure policy
the agency followed at the time to the DNC and AFLCIO would raise substantial First Amendment
concerns; the public disclosure of the associations’
confidential internal materials would “intrude [ ] on
the ‘privacy of association and belief guaranteed by
the First Amendment,” and seriously interfere with
internal group operations and effectiveness. 333 F.3d
177-78, quoting Buckley v. Valeo, 424 U.S. 1, 64(1976);
see also id. at 178 (expressing concern that compelled
disclosure of such materials combined with the
Commission’s broad subpoena practices would
encourage political opponents to file charges against
their competitors to chill the expressive efforts of their
competitors and to learn and exploit their political
strategies).

App-44
The Court stated that when analyzing a
constitutional challenge to a disclosure requirement,
courts must
balance the burdens imposed on individuals
and associations against the significance of
the government interest in disclosure and
consider the degree to which the government
has tailored the disclosure requirement to
serve its interests. Where a political group
demonstrates that the risk of retaliation and
harassment is “likely to affect adversely the
ability of. . . [the group] and its members to
pursue their collective effort to foster beliefs
which they admittedly have the right to
advocate,” for instance, the government may
justify the disclosure requirement only by
demonstrating that it directly serves a
compelling state interest. In contrast, where
the burden on associational rights is
“insubstantial,” we have upheld a disclosure
requirement that provided “the only sure
means of achieving” a government interest
that was, though valid, “not... of the highest
importance.”
333 F.3d at 176, quoting Buckley, 424 U.S. at 64-68,
Block v. Meese, 793 F.2d 1303, 1315-16 (D.C. Cir.
1986), and NAAPC v. Alabama, 357 U.S. 449, 462-63
(1958) (citations omitted) (edits in original).
Here, plaintiffs do not make any claim that
anyone’s associational rights are being infringed, and
disclosing the identities of plaintiffs here would not
involve the disclosure of anyone’s internal operations
or political strategies.

App-45
Moreover, the investigative file in AFL-CIO
involved tens of thousands of pages that the
Commission gathered but never reviewed—and so the
information in those pages played no role in the
agency’s decision making process. See AFL-CIO, 333
F.3d at 171-72. The unreviewed files included the
names of hundreds of volunteers, members, and
employees, id. at 176, none of whom had any role in
the matter being investigated. See id. at 171
(describing the underlying complaint to allege that the
AFL-CIO and other unions had unlawfully
coordinated campaign expenditures with political
candidates and party committees). By contrast, here
the Commission seeks to disclose documents that were
central to its handling and decision making in
reaching the conciliation agreement and closing MUR
6920, including its decision of whether to pursue
litigation against plaintiffs that arose out of and was
directly related to the investigation.
The disclosure defendant seeks to make here is
pursuant to its recently revised policy, which the
agency carefully tailored to minimize the burdens on
constitutional rights while providing for sufficient
disclosure to advancing legitimate concerns of
deterring
future
violations
and
promoting
Commission accountability. Thus, the limited
disclosure of plaintiff s names would not threaten any
of the interests that concerned the Court in AFL-CIO,
and that case does not govern the outcome here.
B. Disclosure of plaintiffs’ identity does not
violate the First Amendment.
So then the question is: do the reasons advanced
for disclosing the records of completed investigations,

App-46
which the D.C. Circuit stated “may well justify
releasing more information than the minimum
disclosures required by section 437g(a),” AFL-CIO,
333 F.3d at 179, outweigh any concerns the Court
might have about the more limited intrusion on First
Amendment rights that is being alleged here?
The Court notes at the outset that although John
Doe 2 appears to be asserting a First Amendment
right to make a political contribution without being
identified, see Pis.’ Reply at 15-17, it is unclear
whether John Doe 1 is asserting a personal
constitutional right in this case and whether he has
standing to raise the First Amendment issue. The
complaint only mentions the constitution once:
paragraph 40 alleges summarily that “[t]he
Commission’s disclosure of Plaintiffs’ names is an
arbitrary and capricious decision, and an abuse of
discretion because such action violates the First
Amendment to the United States constitution.”
Compl. f 40; see also Compl. 3 (alleging that the
release of their identities is contrary to law under
FECA and FOIA for a number of reasons, including
that it “has the effect of chilling speech”).
But there are no factual allegations in the
complaint concerning plaintiffs’ exercise of their right
to free speech. In his declaration in support of the
motion for injunctive relief, John Doe 1, the trustee,
states:
10. The disclosure that John Doe 2 and 1 were
even marginally involved in an investigation
into alleged violations of campaign finance
law will damage my professional reputation
[REDACTED],

App-47
11. I fear that being connected to this
investigation will damage my reputation and
John Doe 2’s reputation.
Decl. of John Doe 1 in Supp. of Pis.’ Mot. (Redacted)
[Dkt. # 13-1] TH 10-11. These concerns go to John Doe
l’s FOIA and privacy concerns, not the constitutional
concerns.
John Doe 1 adds:
12. The events subject to the FEC’s
investigation in MUR 6920 pertained to core
First Amendment activity, that is, political
fundraising. It is objectively reasonable to
conclude that disclosure of the identities of
parties involved in an FEC investigation of
events
subject to First Amendment
protections that result in no FEC
enforcement action will be chilled in the
exercise of their First Amendment rights.
Id. T| 12. This convoluted sentence does not
actually specify who it is the trustee posits “will be
chilled.” And, since it was the trust, John Doe 2, that
allegedly transferred the funds to Government
Integrity to be used for the constitutionally protected
purpose of funding campaign activities, and John Doe
1 was acting solely on behalf of the trust, it is not clear
how John Doe l’s First Amendment rights play any
role in this case.6
In any event, even if one concludes that at least
one plaintiff has asserted an interest in preventing the
6 Indeed, John Doe 1 emphasizes that “the full record now
reveals that the FEC accused John Doe 1 of a violation in his
official capacity as a trustee only.” Pis.’ Reply at 21.

App-48
chilling of future speech in the form of donations, the
only right that is implicated by the agency’s actions in
this case is the right to contribute anonymously, not
the right to contribute at all.
Thus, the case is entirely distinguishable from
AFL-CIO, and, more importantly, notwithstanding
the plaintiffs’ highly selective quotations from the case
law, the constitutional issue has already been decided
in the agency’s favor.
The First Amendment protects political
speech; and disclosure permits citizens and
shareholders to react to the speech of
corporate entities in a proper way. This
transparency enables the electorate to make
informed decisions and give proper weight to
different speakers and messages.
Citizens United v. FEC, 558 U.S. 310, 371 (2010).
It is true that in Buckley v. Valeo, the Supreme
Court stated that disclosure of campaign contributions
could chill political activity and impose “not
insignificant burdens” on First Amendment rights.
424 U.S. at 65-66, 68. But as the Court recounted in
Citizens United, it has repeatedly held that those
burdens withstand strict scrutiny. 558 U.S. at 366-71.
In Citizens United, the Court addressed not only the
provisions of the Bipartisan Campaign Reform Act
(“BCRA”) that prohibited campaign expenditures by
corporations and unions, but also the disclosure
provisions contained in the legislation. And in doing
so, it reviewed its treatment of the disclosure issue to
date.
Disclaimer and disclosure requirements may
burden the ability to speak, but they “impose

App-49
no ceiling on campaign-related activities.”
The Court has subjected these requirements
to “exacting scrutiny,” which requires a
“substantial relation” between the disclosure
requirement and a “sufficiently important”
governmental interest.
In Buckley, the Court explained that
disclosure could be justified based on a
governmental interest in “provid[ing] the
electorate with information” about the
sources of election-related spending. The
McConnell Court applied this interest in
rejecting facial challenges to BCRA §§ 201
and 311. There was evidence in the record
that independent groups were running
election-related
advertisements
‘“while
hiding behind dubious and misleading
names.” The Court therefore upheld BCRA
§§201 and 311 on the ground that they would
help citizens “make informed choices in the
political marketplace.”
558 U.S. at 366-67, quoting Buckley, 424 U.S. at 64,
66, and McConnell v. FEC, 540 U.S. 93, 196, 201, 23132 (2003) (internal citations, quotation marks, and
brackets omitted); see also AFL-CIO, 333 F.3d at 176
(observing that the Court in Buckley concluded that
the disclosure requirements “survived strict scrutiny
as the least intrusive means of achieving several
compelling governmental interests”). Therefore,
neither the FEC policy on its face nor its application
in this case impinges impermissibly on the plaintiffs’
First Amendment right to express themselves through
political donations.

App-50
In Citizens United, though, the Court reassured
litigants that “as-applied challenges would be
available if a group could show a ‘reasonable
probability’ that disclosure of its contributors’ names
will subject them to threats, harassment, or reprisals
from either government officials or private parties.”
Citizens United, 558 U.S. at 367, quoting McConnell,
540 U.S. at 198 and Buckley, 424 U.S. at 74. But
plaintiffs do not even allege, much less demonstrate,
that there are any grounds to fear that they would be
subject to harassment or reprisals—the only harm
they allege is the claimed harm to their reputations
arising from the fact that they were under
investigation.
So the disclosure involved in this case would not
offend the Constitution, and the only question that
remains to be resolved is whether, considering the
privacy issues asserted by the plaintiffs, disclosure is
reasonable under standard APA principles.
IV. Application of the FEC’s Disclosure Policy to
Plaintiffs in this case is Reasonable and
Consistent with FOIA.
FECA requires the disclosure of any “conciliation
agreement” and any “determination that a person has
not violated this Act.” 52 U.S.C. § 30109(a)(4)(B)(ii).
The implementing regulation provides:
If the Commission makes a finding of no
reason to believe or no probable cause to
believe
or
otherwise
terminates
its
proceedings, it shall make public such action
and the basis therefor ., . [and]

App-51
If a conciliation agreement is finalized, the
Commission shall make public such
conciliation agreement forthwith.
11 C.F.R. §111.20(a)-(b) (emphasis added). Because, as
explained above, there are no constitutional issues
implicated by the Commission’s proposed disclosure in
this case, Chevron deference applies.
The Court holds that the agency’s interpretation
of the statute to require the public disclosure set forth
in the regulation is reasonable. SeeAFL-CIO, 333 F.3d
at 178 (recognizing that deterring FECA violations
and promoting its own public accountability are valid
goals of the disclosure regulation and finding the prior
regulation invalid only on the basis that it was not
tailored “to avoid unnecessarily burdening the First
Amendment rights of the political organizations” the
agency investigates). And the disclosure of plaintiffs’
names in this case is consistent with subsection
(a)(4)(B)(ii), as it has been interpreted by the agency
in 11 C.F.R.§111 20(a).
The Court agrees with plaintiffs that the
Commission did not “make a finding of no reason to
believe” in this case. Rather, all the Commission did
with respect to plaintiffs was decline to make a finding
that there was reason to believe, even though the OGC
asked it to. But the facts of this case fall well within
the provision of the regulation requiring disclosure in
cases where the Commission “otherwise terminates its
proceedings.” 11 C.F.R. § 111.20(a). The investigation
as a whole was otherwise terminated, including the
aspect of the matter that involved issuing a subpoena
to the plaintiffs. Indeed, since under terms of the
statute, even the names of those who are investigated

App-52
and exonerated are publicly revealed, 52 U.S.C.
§ 30109(a)(4)(A)(ii), the Court finds that it would not
be unreasonable to release the plaintiffs names here.
Plaintiffs emphasize that they were neither
targets of, nor respondents to, the MUR 6920
investigation, so they reject the notion that there were
any “proceedings” opened or closed as to them. See
Pl.’s Reply at 1, 8. But the language of the regulation
is not so narrow, and the public has an interest in the
agency’s decision to terminate this proceeding
involving Government Integrity without enforcing its
own subpoenas and following the money back to its
source. And the only reason the Doe 2 trust was not a
respondent from the outset was because CREW did
not know who the donor was. This is not a situation
where a person’s name happened to come up in a wide
ranging inquiry. Plaintiffs here were integrally
involved in a narrow, focused investigation: plaintiff
John Doe 2 was a link in the single chain involving a
single contribution, it is related to Government
Integrity, a party to the conciliation agreement, and it
was the recipient of a subpoena from the agency. The
only reason plaintiffs’ identity was not revealed in the
investigation was because plaintiffs resisted
responding to the agency’s subpoena.7
7 Plaintiffs make much of the fact that after Commissioner
Weintraub published a statement of reasons decrying the
resolution of the proceedings before the Commission established
who was behind the $1.7 million contribution, see Weintraub
Statement of Reasons, two of the Commissioners who voted to
end the investigation issued a statement of their own. See Pis.’
Reply at 4-5, 20, citing Hunter and Goodman Statement of
Reasons. It is true that in a footnote to their separate statement,
Vice Chair Hunter and Commissioner Goodman expressed

App-53
Plaintiffs also rely on FOIA principles when
identifying the privacy interests the agency was bound
to protect. They point out that FOIA Exemption 7(C)
exempts from disclosure information compiled for law
enforcement purposes, which “could reasonably be
expected to constitute an unwarranted invasion of
personal privacy;” and that the purpose of the
provision is to protect the privacy interests of suspects,
witnesses, and investigators. Pis.’ Mot. at 6-8, citing 5
U.S.C. § 552(b)(7)(C), SafeCard Servs., Inc. v. SEC,
concerns that Commissioner Weintraub had “publicly prejudged”
plaintiffs’ guilt and “pre-supposed facts and intent without
investigation.” Hunter and Goodman Statement of Reasons at 3
n.8. But plaintiffs make too much of these comments, and their
efforts to highlight the footnote obscure the fact that there is
nothing in the body of the two Commissioners’ Statement of
Reasons that militates against disclosure under the FEC policy.
The Hunter and Goodman five-page letter makes several points:
1) that the legal theory underlying the OGC’s “reason to believe”
recommendation concerning plaintiffs was unclear, and that
more factual investigation on the question of intent was needed
because “the Commission had circumstantial evidence but not
direct evidence,” and “time was running out;” 2) the statute of
limitations concerning the original respondents was close to
expiring, and expanding the matter to include plaintiffs could
delay the case further, so “we believed the most efficient
prosecutorial path forward was to finalize the case against the 3
Respondents” as efficiently and expeditiously as possible;” 3) the
agency’s decision to conciliate with the named respondents and
avoid “the procedural, legal, and investigative complexities” of
adding plaintiffs was well within the agency’s prosecutorial
discretion; and 4) the decision was in the public interest since the
conciliation agreement established precedent and secured a large
penalty. See Hunter and Goodman Statement of Reasons. None
of this suggests that the allegations of plaintiffs’ involvement or
the fact that the agency declined to enforce its own subpoena
were not integral to the proceeding or its termination.

...i

App-54
926 F.2d 1197, 1205 (D.C. Cir. 1991), and Bast v. DOJ,
665 F.2d 1251, 1254 (D.C. Cir. 1981). But John Doe 2
is a trust, see Pis.’ Mot. at 1, and under wellestablished FOIA principles, an entity has no right to
“personal privacy” under FOIA Exemption 7(C). See
FCC v. AT&T Inc., 562 U.S. 397, 409-10 (2011)
(rejecting argument that “personal privacy” in
Exemption 7(C) reaches corporations: “protection in
FOIA against disclosure of law enforcement
information on the ground that it would constitute an
unwarranted invasion of personal privacy does not
extend to corporations”). And the actions of John Doe
1, as the trustee for John Doe 2, were solely on behalf
of the trust, not himself, so his asserted privacy
interests are minimal.
Accordingly, the Court defers to the FEC’s
reasonable interpretation of the statutory disclosure
requirements and holds that the application of that
policy to plaintiffs in this case is valid. The agency’s
salutary interest in exposing its decision making to
public scrutiny outweighs plaintiffs’ insubstantial
privacy concerns.
CONCLUSION
For the reasons set forth above, the Court will not
enjoin defendant’s disclosure of plaintiffs’ identities as
part of the regular release of the investigative file for
MUR 6920 under the FEC’s revised disclosure policy.
A separate order will issue.
[handwritten: signature!
AMY BERMAN JACKSON
DATE: May 29,2018

United
Judge

States

District

App-55
^Appendix D
RELEVANT CONSTITUTIONAL PROVISIONS,
STATUTORY PROVISIONS, AND
REGULATIONS
U.S. Const, amend. I
Congress shall make no law respecting an
establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of speech, or
of the press; or the right of the people peaceably to
assemble, and to petition the Government for a
redress of grievances.
52 U.S.C. §30106(b)(l)
(b) Administration, enforcement, and formulation of
policy; exclusive jurisdiction of civil enforcement;
Congressional authorities or functions with respect to
elections for Federal office
(1) The Commission shall administer, seek to
obtain compliance with, and formulate policy with
respect to, this Act and chapter 95 and chapter 96
of title 26. The Commission shall have exclusive
jurisdiction with respect to the civil enforcement
of such provisions.
52 U.S.C. §30107(a)(8)
(a) Specific authorities
(8) to develop such prescribed forms and to make,
amend, and repeal such rules, pursuant to the
provisions of chapter 5 of title 5, as are necessary
to carry out the provisions of this Act and chapter
95 and chapter 96 of title 26; and

App-56
52 U.S.C. §30109. Enforcement
(a) Administrative and judicial practice and
procedure
(1) Any person who believes a violation of this Act
or of chapter 95 or chapter 96 of title 26 has
occurred, may file a complaint with the
Commission. Such complaint shall be in writing,
signed and sworn to by the person filing such
complaint, shall be notarized, and shall be made
under penalty of perjury and subject to the
provisions of section 1001 of title 18. Within 5
days after receipt of a complaint, the Commission
shall notify, in writing, any person alleged in the
complaint to have committed such a violation.
Before the Commission conducts any vote on the
complaint, other than a vote to dismiss, any
person so notified shall have the opportunity to
demonstrate, in writing, to the Commission
within 15 days after notification that no action
should be taken against such person on the basis
of the complaint. The Commission may not
conduct any investigation or take any other action
under this section solely on the basis of a
complaint of a person whose identity is not
disclosed to the Commission.
(2) If the Commission, upon receiving a complaint
under paragraph (1) or on the basis of information
ascertained in the normal course of carrying out
its supervisory responsibilities, determines, by an
affirmative vote of 4 of its members, that it has
reason to believe that a person has committed, or
is about to commit, a violation of this Act or
chapter 95 or chapter 96 of title 26, the

App-57
Commission shall, through its chairman or vice
chairman, notify the person of the alleged
violation. Such notification shall set forth the
factual basis for such alleged violation. The
Commission shall make an investigation of such
alleged violation, which may include a field
investigation or audit, in accordance with the
provisions of this section.
(3) The general counsel of the Commission shall
notify the respondent of any recommendation to
the Commission by the general counsel to proceed
to a vote on probable cause pursuant to paragraph
(4)(A)(i). With such notification, the general
counsel shall include a brief stating the position of
the general counsel on the legal and factual issues
of the case. Within 15 days of receipt of such brief,
respondent may Submit a brief stating the
position of such respondent on the legal and
factual issues of the case, and replying to the brief
of general counsel. Such briefs shall be filed with
the Secretary of the Commission and shall be
considered by the Commission before proceeding
under paragraph (4).
(4)(A)(i) Except as provided in clauses1 (ii) and
subparagraph (C), if the Commission
determines, by an affirmative vote of 4 of
its members, that there is probable cause
to believe that any person has committed,
or is about to commit, a violation of this
Act or of chapter 95 or chapter 96 of title
26, the Commission shall attempt, for a
1 So in original. Probably should be “clause”.

App-58
period of at least 30 days, to correct or
prevent such violation by informal
methods of conference, conciliation, and
persuasion, and to enter into a
conciliation agreement with any person
involved.
Such
attempt
by
the
Commission to correct or prevent such
violation may continue for a period of not
more than 90 days. The Commission may
not enter into a conciliation agreement
under this clause except pursuant to an
affirmative vote of 4 of its members. A
conciliation agreement, unless violated,
is a complete bar to any further action by
the Commission, including the bringing
of a civil proceeding under paragraph
(6) (A).
(ii) If any determination of the
Commission under clause (i) occurs
during the 45-day period immediately
preceding any election, then the
Commission shall attempt, for a period of
at least 15 days, to correct or prevent the
violation involved by the methods
specified in clause (i).
(B)(i) No action by the Commission or any
person, and no information derived, in
connection with any conciliation attempt
by the Commission under subparagraph
(A) may be made public by the
Commission without the written consent
of the respondent and the Commission.

App-59
(ii) If a conciliation agreement is agreed
upon by the Commission and the
respondent, the Commission shall make
public any conciliation agreement signed
by both the Commission and the
respondent. If the Commission makes a
determination that a person has not
violated this Act or chapter 95 or chapter
96 of title 26, the Commission shall make
public such determination.
(C)(i) Notwithstanding subparagraph (A), in
the case of a violation of a qualified
disclosure requirement, the Commission
may—
(I) find that a person committed such
a violation on the basis of
information obtained pursuant to
the
procedures
described
in
paragraphs (1) and (2); and
(II) based on such finding, require
the person to pay a civil money
penalty in an amount determined,
for violations of each qualified
disclosure requirement, under a
schedule of penalties which is
established and published by the
Commission and which takes into
account the amount of the violation
involved, the existence of previous
violations by the person, and such
other factors as the Commission
considers appropriate.

App-60
(ii) The Commission may not make any
determination adverse to a person under
clause (i) until the person has been given
written notice and an opportunity to be
heard before the Commission.
(iii) Any person against whom an adverse
determination is made under this
subparagraph may obtain a review of
such determination in the district court
of the United States for the district in
which the person resides, or transacts
business, by filing in such court (prior to
the expiration of the 30-day period which
begins on the date the person receives
notification of the determination) a
written. petition requesting that the
determination be modified or set aside.
(iv) In this subparagraph, the term
“qualified
disclosure
requirement”
means any requirement of—
(I) subsections2 (a), (c), (e), (f), (g), or
(i) of section 30104 of this title; or
(II) section 30105 of this title.
(v) This subparagraph shall
respect to violations that
reporting periods that begin
January 1, 2000, and that
before December 31, 2023.

apply with
relate to
on or after
end on or

(5)(A) If the Commission believes that a violation
of this Act or of chapter 95 or chapter 96 of
2 So in original. Probably should be “subsection”.

App-61
title 26 has been committed, a conciliation
agreement entered into by the Commission
under paragraph (4) (A) may include a
requirement that the person involved in such
conciliation agreement shall pay a civil
penalty which does not exceed the greater of
$5,000 or an amount equal to any
contribution or expenditure involved in such
violation.
(B) If the Commission believes that a
knowing and willful violation of this Act or of
chapter 95 or chapter 96 of title 26 has been
committed, a conciliation agreement entered
into by the Commission under paragraph
(4) (A) may require that the person involved in
such conciliation agreement shall pay a civil
penalty which does not exceed the greater of
$10,000 or an amount equal to 200 percent of
any contribution or expenditure involved in
such violation (or, in the case of a violation of
section 30122 of this title, which is not less
than 300 percent of the amount involved in
the violation and is not more than the greater
of $50,000 or 1,000 percent of the amount
involved in the violation).
(C) If the Commission by an affirmative vote
of 4 of its members, determines that there is
probable cause to believe that a knowing and
willful violation of this Act which is subject to
subsection (d), or a knowing and willful
violation of chapter 95 or chapter 96 of title
26, has occurred or is about to occur, it may
refer such apparent violation to the Attorney

App-62
General of the United States without regard
to any limitations set forth in paragraph
(4) (A).
(D) In any case in which a person has entered
into a conciliation agreement with the
Commission under paragraph (4)(A), the
Commission may institute a civil action for
relief under paragraph (6)(A) if it believes
that the person has violated any provision of
such conciliation agreement. For the
Commission to obtain relief in any civil
action, the Commission need only establish
that the person has violated, in whole or in
part, any requirement of such conciliation
agreement.
(6)(A) If the Commission is unable to correct or
prevent any violation of this Act or of chapter
95 or chapter 96 of title 26, by the methods
specified in paragraph (4), the Commission
may, upon an affirmative vote of 4 of its
members, institute a civil action for relief,
including a permanent or temporary
injunction, restraining order, or any other
appropriate order (including an order for a
civil penalty which does not exceed the
greater of $5,000 or an amount equal to any
contribution or expenditure involved in such
violation) in the district court of the United
States for the district in which the person
against whom such action is brought is found,
resides, or transacts business.
(B) In any civil action instituted by the
Commission under subparagraph (A), the

App-63
court may grant a permanent or temporary
injunction, restraining order, or other order,
including a civil penalty which does not
exceed the greater of $5,000 or an amount
equal to any contribution or expenditure
involved in such violation, upon a proper
showing that the person involved has
committed, or is about to commit (if the relief
sought is a permanent or temporary
injunction or a restraining order), a violation
of this Act or chapter 95 or chapter 96 of title
26.
(C) In any civil action for relief instituted by
the Commission under subparagraph (A), if
the court determines that the Commission
has established that the person involved in
such civil action has committed a knowing
and willful violation of this Act or of chapter
95 or chapter 96 of title 26, the court may
impose a civil penalty which does not exceed
the greater of $10,000 or an amount equal to
200 percent of any contribution or
expenditure involved in such violation (or, in
the case of a violation of section 30122 of this
title, which is not less than 300 percent of the
amount involved in the violation and is not
more than the greater of $50,000 or 1,000
percent of the amount involved in the
violation).
(7) In any action brought under paragraph (5) or
(6), subpenas for witnesses who are required to
attend a United States district court may run into
any other district.

App-64
(8) (A) Any party aggrieved by an order of the
Commission dismissing a complaint filed by
such party under paragraph (1), or by a
failure of the Commission to act on such
complaint during the 120-day period
beginning on the date the complaint is filed,
may file a petition with the United States
District Court for the District of Columbia.
(B) Any petition under subparagraph (A)
shall be filed, in the case of a dismissal of a
complaint by the Commission, within 60 days
after the date of the dismissal.
(C) In any proceeding under this paragraph
the court may declare that the dismissal of
the complaint or the failure to act is contrary
to law, and may direct the Commission to
conform with such declaration within 30
days, failing which the complainant may
bring, in the name of such complainant, a civil
action to remedy the violation involved in the
original complaint.
(9) Any judgment of a district court under this
subsection may be appealed to the court of
appeals, and the judgment of the court of appeals
affirming or setting aside, in whole or in part, any
such order of the district court shall be final,
subject to review by the Supreme Court of the
United States upon certiorari or certification as
provided in section 1254 of title 28.
(10) Repealed. Pub. L. 98-620, title IV, §402(1)(A),
Nov. 8, 1984, 98 Stat. 3357.
(11) If the Commission determines after an
investigation that any person has violated an

App-65
order of the court entered in a proceeding brought
under paragraph (6), it may petition the court for
an order to hold such person in civil contempt, but
if it believes the violation to be knowing and
willful it may petition the court for an order to
hold such person in criminal contempt.
(12)(A) Any notification or investigation made
under this section shall not be made public by
the Commission or by any person without the
written consent of the person receiving such
notification or the person with respect to
whom such investigation is made.
(B) Any member or employee of the
Commission, or any other person, who
violates the provisions of subparagraph (A)
shall be fined not more than $2,000. Any such
member, employee, or other person who
knowingly and willfully violates the
provisions of subparagraph (A) shall be fined
not more than $5,000.
(b) Notice to persons not filing required reports
prior to institution of enforcement action;
publication of identity of persons and unfiled
reports
Before taking any action under subsection (a)
against any person who has failed to file a report
required under section 30104(a)(2)(A)(iii) of this title
for the calendar quarter immediately preceding the
election involved, or in accordance with section
30104(a)(2)(A)(i) of this title, the Commission shall
notify the person of such failure to file the required
reports. If a satisfactory response is not received
within 4 business days after the date of notification,

App-66
the Commission shall, pursuant to section 30111(a)(7)
of this title, publish before the election the name of the
person and the report or reports such person has failed
to file.
(c) Reports by Attorney General of apparent
violations
Whenever the Commission refers an apparent
violation to the Attorney General, the Attorney
General shall report to the Commission any action
taken by the Attorney General regarding the apparent
violation. Each report shall be transmitted within 60
days after the date the Commission refers an apparent
violation, and every 30 days thereafter until the final
disposition of the apparent violation.
(d) Penalties; defenses; mitigation of offenses
(1)(A) Any person who knowingly and willfully
commits a violation of any provision of this
Act which involves the making, receiving, or
reporting of any contribution, donation, or
expenditure—
(i) aggregating $25,000 or more during a
calendar year shall be fined under title
18, or imprisoned for not more than 5
years, or both; or
(ii) aggregating $2,000 or more (but less
than $25,000) during a calendar year
shall be fined under such title, or
imprisoned for not more than 1 year, or
both.
(B) In the case of a knowing and willful
violation of section 30118(b)(3) of this title,
the penalties set forth in this subsection shall

App-67
apply to a violation involving an amount
aggregating $250 or more during a calendar
year. Such violation of section 30118(b)(3) of
this title may incorporate a violation of
section 30119(b), 30122, or 30123 of this title.
(C) In the case of a knowing and willful
violation of section 30124 of this title, the
penalties set forth in this subsection shall
apply without regard to whether the making,
receiving, or reporting of a contribution or
expenditure of $1,000 or more is involved.
(D) Any person who knowingly and willfully
commits a violation of section 30122 of this
title involving an amount aggregating more
than $10,000 during a calendar year shall
be—
(i) imprisoned for not more than 2 years
if the amount is less than $25,000 (and
subject
to
imprisonment
under
subparagraph (A) if the amount is
$25,000 or more);
(ii) fined not less than 300 percent of the
amount involved in the violation and not
more than the greater of—
(I) $50,000; or
(II) 1,000 percent of the amount
involved in the violation; or
(iii) both imprisoned under clause (i) and
fined under clause (ii).
(2) In any criminal action brought for a violation
of any provision of this Act or of chapter 95 or
chapter 96 of title 26, any defendant may evidence

i

App-68
their lack of knowledge or intent to commit the
alleged violation by introducing as evidence a
conciliation agreement entered into between the
defendant and the Commission under subsection
(a)(4)(A) which specifically deals with the act or
failure to act constituting such violation and
which is still in effect.
(3) In any criminal action brought for a violation
of any provision of this Act or of chapter 95 or
chapter 96 of title 26, the court before which such
action is brought shall take into account, in
weighing the seriousness of the violation and in
considering the appropriateness of the penalty to
be imposed if the defendant is found, guilty,
whether—
(A) the specific act or failure to act which
constitutes the violation for which the action
was brought is the subject of a conciliation
agreement entered into between the
defendant and the Commission under
subparagraph (a)(4)(A);
(B) the conciliation agreement is in effect; and
(C) the defendant is, with respect to the
violation involved, in compliance with the
conciliation agreement.
11 C.F.R. §111.20 Public disclosure of
Commission action (52 U.S.C. 30109(a)(4)).
a. If the Commission makes a finding of no reason to
believe or no probable cause to believe or otherwise
terminates its proceedings, it shall make public such
action and the basis therefor no later than thirty (30)

i

App-69
days from the date on which the required notifications
are sent to complainant and respondent.
b. If a conciliation agreement is finalized, the
Commission shall make public such conciliation
agreement forthwith.
c. For any compliance matter in which a civil action is
commenced, the Commission will make public the
non-exempt 52 U.S.C. 30109 investigatory materials
in the enforcement and litigation files no later than
thirty (30) days from the date on which the
Commission sends the complainant and the
respondent(s) the required notification of the final
disposition of the civil action. The final disposition
may consist of a judicial decision which is not reviewed
by a higher court.
Disclosure of Certain Documents in
Enforcement and Other Materials,
81 Fed. Reg. 50,702, 50,702-03 (Aug. 2, 2016)
AGENCY: Federal Election Commission.
ACTION: Statement of policy.

-

SUMMARY: The Commission is adopting a policy
with respect to placing certain documents on the
public record in enforcement, administrative fines,
and alternative dispute resolution cases, as well as
administrative matters. The categories of records that
will be included in the public record are described
below.
DATES: Effective on September 1, 2016.

FOR FURTHER INFORMATION CONTACT:
Adav Noti, Acting Associate General Counsel, 999 E
Street NW., Washington, DC 20463, 202-694-1650 or
1-800- 424-9530.

App-70
SUPPLEMENTARY
INFORMATION:
The
“confidentiality provision” of the Federal Election
Campaign Act, 52 U.S.C. 30101 et seq. (FECA),
provides that: “Any notification or investigation under
[Section 30109] shall not be made public by the
Commission . . . without the written consent of the
person receiving such notification or the person with
respect to whom such investigation is made.” 52
U.S.C. 30109(a)(12)(A). For approximately the first 25
years of its existence, the Commission viewed the
confidentiality requirement as ending with the
termination of a case. The Commission placed on its
public record the documents that had been considered
by the Commissioners in their determination of a case,
minus those materials exempt from disclosure under
the FECA or under the Freedom of Information Act, 5
U.S.C. 552 (FOIA). See 11 CFR 5.4(a)(4). In AFL-CIO
v. FEC, 177 F. Supp. 2d 48 (D.D.C. 2001), the district
court disagreed with the Commission’s interpretation
of the confidentiality provision and found that the
protection of section 30109(a)(12)(A) does not lapse at
the time the Commission terminates an investigation.
177 F. Supp. 2d at 56.
Following that district court decision, the
Commission placed on the public record only those
documents that reflected the agency’s “final
determination” with respect to enforcement matters.
Such disclosure is required under 52 U.S.C.
30109(a)(4)(B)(ii) and section (a)(2)(A) of the FOIA. In
all cases, the final determination is evidenced by a
certification of Commission vote. The Commission also
continued to disclose documents that explained the
basis for the.final determination. Depending upon the
nature of the case, those documents consisted of

App-71
General Counsel’s Reports (frequently in redacted
form); Probable Cause to Believe Briefs; conciliation
agreements; Statements of Reasons issued by one or
more of the Commissioners; or, a combination of the
foregoing. The district court indicated that the
Commission was free to release these categories of
documents. See 177 F. Supp. 2d at 54 n.ll. In
administrative fines cases, the Commission began
placing on the public record only the Final
Determination Recommendation and certification of
vote on final determination. In alternative dispute
resolution cases, the public record consisted of the
certification of vote and the negotiated agreement.
Although it affirmed the judgment of the district
court in AFL-CIO, the Court of Appeals for the District
of Columbia Circuit differed with the lower court’s
restrictive interpretation of the confidentiality
provision of 52 U.S.C. 30109(a)(12)(A). The Court of
Appeals stated that: “the Commission may well be
correct that. . . Congress merely intended to prevent
disclosure of the fact that an investigation is pending,”
and that: “deterring future violations and promoting
Commission accountability may well justify releasing
more information than the minimum disclosures
required by section [30109](a).” See AFL-CIO u. FEC,
333 F.3d 168, 174, 179 (D.C. Cir. 2003). However, the
Court of Appeals warned that, in releasing
enforcement information to the public, the
Commission must “attempt to avoid unnecessarily
infringing on First Amendment interests where it
regularly subpoenas materials of a ‘delicate
nature. . . representing] the very heart of the
organism which the first amendment was intended to
nurture and protect.’” Id. at 179 (citation omitted). The

App-72
decision suggested that, with respect to materials of
this nature, a “balancing” of competing interests is
required—on one hand, consideration of the
Commission’s interest in promoting its own
accountability and in deterring future violations and,
on the other, consideration of the respondent’s interest
in the privacy of association and belief guaranteed, by
the First Amendment. Noting that the Commission
had failed to tailor its disclosure policy to avoid
unnecessarily burdening the First Amendment rights
of the political organizations it investigates, id. at 178,
the Court found the agency’s disclosure regulation at
11 CFR 5.4(a)(4) to be impermissible, id. at 179. In
December 2003, the Commission issued an interim
disclosure policy. See Statement of Policy Regarding
Disclosure of Closed Enforcement or Related Files, 68
FR 70423 (Dec. 20, 2003) (“Interim Disclosure Policy”).
The Commission is issuing this policy statement
to identify several categories of documents integral to
its decisionmaking process that will be disclosed upon
termination of an enforcement matter, as well as
documents integral to its administrative functions.
This policy replaces the Interim Disclosure Policy as
the Commission’s permanent disclosure policy.
The categories of documents that the Commission
intends to disclose as a matter of regular practice
either do not implicate the Court’s concerns or,
because they play a critical role in the resolution of a
matter, the balance tilts decidedly in favor of public
disclosure, even if the documents reveal some
confidential information. In addition, the Commission
will make certain other documents available on a case
by case basis which will assist the public in

App-73
understanding the record without intruding upon the
associational interests of the respondents.
Enforcement
With respect to enforcement matters, the
Commission will place the following categories of
documents on the public record:
1. Complaint (including
amendments thereto);

supplements

and

2. Internal agency referral where the Commission
opens a Matter Under Review;
3. Response (including supplements
amendments thereto) to complaint;

and

4. General Counsel’s Reports1 (including
supplements2 thereto) that recommend dismissal,
reason to believe, no reason to believe, no action at this
time, probable cause to believe, no probable cause to
believe, no further action, or acceptance of a
conciliation agreement;
5. Notification of reason to believe findings;

1 This category of documents does not include General
Counsel’s Reports that have been withdrawn by the Office of the
General Counsel. The Commission may, upon the affirmative
vote of four or more Commissioners, place such documents on the
public record on a case by case basis.
2 Supplements are documents that contain new or additional
substantive analysis from the Office of the General Counsel
prepared for the Commission in connection with a specific
pending Matter Under Review circulated through the Office of
the Secretary for the consideration and deliberation of the
Commission. Supplements do not include documents that solely
transmit replacement pages to correct errors in circulated reports
or memoranda.

1

App-74
6. Factual and Legal Analyses identified as the
subject of a vote in a Commission certification;
7. Respondent’s response to reason to believe
findings;
8. Briefs (General
Respondent’s Brief);

Counsel’s

Brief

and

9. Statements of Reasons issued by one or more
Commissioners;
10. Conciliation Agreements;
11. Evidence of payment of civil penalty or of
disgorgement;
12. Certifications of Commission votes;
13. Attachments to complaints and attachments
to responses to complaints;
14.
Memoranda
and
reports
(including
supplements2 thereto) from the Office of the General
Counsel prepared for the Commission in connection
with a specific pending Matter Under Review
circulated through the Office of the Secretary for the
consideration and deliberation of the Commission;
15.
Complaint
correspondence from
response to them;

notification
respondents

letters,
and
submitted in

16. Notifications to respondents that were
previously identified as “Unknown Respondents,” and
correspondence from respondents submitted in
response to them;
17. Designations of counsel;
18. Requests for extensions of time;
19. Responses to requests for extensions of time;

App-75
20. Tolling agreements; and
21. Closeout letters.
The Commission is placing the foregoing
categories of documents on the public record in all
matters it closes on or after September 1, 2016,
regardless of the outcome. By doing so, the
Commission complies with the requirements of 52
U.S.C. 30109(a)(4)(B)(ii) and 5 U.S.C. 552(a)(2)(A).
Conciliation Agreements are placed on the public
record pursuant to 52 U.S.C. 30109(a)(4)(B)(ii). On a
case by case basis, the Commission may place on the
public record other documents that edify public
understanding of a closed matter.
The Commission will place these documents on
the public record as soon as practicable, and will
endeavor to do so within 30 days of the date on which
notifications are sent to complainant and respondent.
See 11 CFR 111.20(a). In the event a Statement of
Reasons is required, but has not been issued before the
date proposed for the release of the remainder of the
documents in a matter, those documents will be placed
on the public record and the Statement of Reasons will
be added to the file when issued.
The Commission is not placing on the public
record certain other materials from its investigative
files, such as subpoenaed records, deposition
transcripts, and other records produced in discovery,
even if those evidentiary documents are referenced in,
or attached to, documents specifically subject to
release under this policy. The Commission also will
not place the following categories of documents on the
public record:

App-76
1. Sua sponte submissions and accompanying
attachments;
2. External referrals from other agencies and law
enforcement sources in which the Commission
declines to open a Matter Under Review;
3. Documents (other than notification letters)
related to debt settlement plans and proposed
administrative terminations in which the Commission
does not approve the debt settlement plan or
administrative termination.
*

*

*

